U.S. Department of the Interior
Office of Inspector General




        ADVISORY REPORT


    CRIMINAL REFERRAL PROCESS,
      OFFSHORE CIVIL/CRIMINAL
        PENALTIES PROGRAM,
   MINERALS MANAGEMENT SERVICE

             REPORT NO. 00-I-243
               FEBRUARY 2000
U.S. Department of the Interior                                Office of Inspector General


                             EXECUTIVE SUMMARY

                              Criminal Referral Process,
                      Offshore Civil/Criminal Penalties Program,
                             Minerals Management Service
                                 Report No. 00-I-243
                                     February 2000

BACKGROUND

The Minerals Management Service’s Offshore Minerals Management Program conducts
leasing activities for and provides oversight of mineral operations on the Nation’s Outer
Continental Shelf. The Offshore Program is responsible for all phases of offshore oil and gas
activity, including the regulation of all exploration, development, and production activities
on more than 7,100 active leases. Service inspectors perform inspections of Outer
Continental Shelf facilities to ensure that operators of oil and gas platforms comply with
Service regulations and terms of the leases, rights-of-way, licenses, and permits. The
inspections include monitoring offshore production and drilling operations and testing safety
and pollution prevention equipment, which prevents or minimizes the effects of well
blowouts, fires, oil spills, and other major accidents. Criminal violations of offshore
operations are addressed in Section 24(c) of the Outer Continental Shelf Lands Act (43
U.S.C. 1350~). The Service’s OCS (Outer Continental Shelf) Civil/Criminal Penalties
Program policy document dated January 1996, which incorporates the Service’s “OCS
CiviLCriminal Penalties Program Policy and Procedures Guidebook,” dated December 1992,
provides guidelines on violations that should be referred to the Office of Inspector General
for potential criminal violations. The Service revised its “Guidebook” on Mayl2,1999, after
our fieldwork was completed. For fiscal years 1993 through 1998, the Service made 18
criminal referrals to the Office of Inspector General, of which 3 referrals were accepted by
the Department of Justice and resulted in one criminal prosecution and two civil settlements.

OBJECTIVE

The objective of the audit was to determine whether the Service’s process was effective in
ensuring that criminal violations of statutes and regulations that provide for safe and
environmentally sound offshore oil and gas operations were referred to the Office of
Inspector General when appropriate. Specifically, we determined whether (1) the Service
made criminal referrals when required and (2) the coordination between the Service and the
Office of Inspector General was adequate to ensure the effective and timely pursuit of
criminal referrals by the Office of Inspector General. The audit was performed at the request
of the Minerals Management Service.
RESULTS IN BRIEF

We found that the Minerals Management Service’s offshore criminal referral process did not
ensure that potential criminal violations by offshore oil and gas operators were referred to
the Office of Inspector General for review. In addition, the Office of Inspector General did
not timely communicate the status of referred cases to the Service. Specifically, potential
criminal cases that constituted a threat of serious, irreparable, or immediate harm or damage
to life, property, and the environment were not referred to the Office of Inspector General for
review. Section 24(c) of the Outer Continental Land Shelf Lands Act defines a criminal
violation as a “knowing and willful” act that is a violation of the provisions of the Act or the
falsification of documents filed under the Act. The Inspector General Act defines a primary
objective of the Inspector General as providing leadership and coordination and
recommending policies for activities designed to prevent and detect fraud and abuse in
programs of agencies of the executive branch of the Federal Government. These deficiencies
occurred, however, because of inadequate communication between the Service and the
Office of Inspector General. Specifically, only 18 suspected criminal violations have been
referred since enactment of the Oil Pollution Act of 1990, which resulted in one criminal
prosecution and two civil settlements by the Department of Justice. As a result, criminal
prosecutions have not been used effectively as a deterrent to violators to ensure safe and
environmentally sound offshore oil and gas operations, and potential violations of a criminal
nature have not been fully evaluated for prosecutorial merit.

RECOMMENDATIONS

We recommended that the Director, Minerals Management Service, and the Assistant
Inspector General for Investigations jointly establish more specific guidelines to distinguish
cases meriting criminal investigation and provide training, on the guidance subsequently
developed, to personnel of the Service’s Outer Continental Shelf involved in the criminal
referral process. We further recommended that the Assistant Inspector General for
Investigations timely notify the Service on the status and disposition of cases referred.

AUDITEE COMMENTS AND OIG EVALUATION

Both the Service and the Assistant Inspector General for Investigations concurred with the
report’s three recommendations. Based on the responses and subsequent communications,
we considered all of the recommendations resolved but not implemented. Accordingly, the
recommendations will be referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation. Since the report’s recommendations are considered
resolved, no further response to the Office of Inspector General is required.




                                               2
                                                                          C-IN-MMS-004-98


              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, D.C. 20240

                                                                              FEZ   L   .i   L_.I1c
                              ADVISORY REPORT

Memorandum

To:        Assistant Secretary for Land and Minerals Management
           Assistant Inspector General for Investigations, Office of Inspector General

From:      Robert J. Williams
           Assistant Inspector General fo

Subject: Advisory Report on the Criminal Referral Process, Offshore Civil/Criminal
         Penalties Program, Minerals Management Service (No. 00-I-243)

                                 INTRODUCTION

This report presents the results of our audit of the criminal referral process of the Minerals
Management Service’s offshore civil/criminal penalties program. The objective of the audit
was to determine whether the Service’s process was effective in ensuring that criminal
violations of statutes and regulations that provide for safe and environmentally sound
offshore oil and gas operations were referred to the Office of Inspector General when
appropriate. Specifically, we determined whether (1) the Service made criminal referrals
when required and (2) the coordination between the Service and the Office of Inspector
General was adequate to ensure the effective and timely pursuit of criminal referrals by the
Office of Inspector General. The audit was performed at the request of the Minerals
Management Service. This is the second of two reports on the Service’s offshore
civil/criminal penalties program. The first report (No. 99-I-374) addressed the Service’s civil
penalties program and was issued in March 1999.

BACKGROUND

The Minerals Management Service administers two programs to accomplish its mission: the
Royalty Management Program and the Offshore Minerals Management Program. All
mineral revenue functions are centralized within the Royalty Management Program, which
collects, accounts for, and distributes revenues generated from Federal and Indian lands and
the Outer Continental Shelf. The Service’s Offshore Minerals Management Program
conducts leasing activities for and provides oversight of mineral operations on the Nation’s
Outer Continental Shelf. The headquarters for the Offshore Minerals Management Program
is in Washington, D.C., and regional offices are in Anchorage, Alaska; Camarillo, California;
and New Orleans, Louisiana. The Offshore Program is responsible for all phases of offshore
oil and gas activity, including the regulation of all exploration, development, and production
activities on more than 7,100 active leases.

The Service’s Outer Continental Shelf regional offices provide support and guidance to
district offices that are located within each region. Service inspectors from the district
offices perform inspections of Outer Continental Shelf facilities to ensure that operators of
oil and gas platforms comply with Service regulations and terms of the leases, rights-of-way,
licenses, and permits. As of September 30, 1998, the Service had 56 inspectors in the Gulf
of Mexico Region and 8 inspectors in the Pacific Region. There were no inspectors in the
Alaska Region because there were no offshore oil and gas operations at that time. The 64
inspectors were responsible for conducting on-site inspections of more than 3,800 platforms
and approximately 15,000 oil and gas wells on the 7,100 active leases. The inspections
included monitoring offshore production and drilling operations and testing safety and
pollution prevention equipment, which prevents or minimizes the effects of well blowouts,
fires, oil spills, and other major accidents. When Service inspectors find violations of the
regulations, they issue Incidents of Noncompliance to the operator of the facility. The
Service has developed a list of potential Incidents of Noncompliance that identifies
approximately 600 potential violations.

Criminal violations of offshore operations are addressed in Section 24(c) of the Outer
Continental Shelf Lands Act (43 U.S.C. 1350~). The Service’s OCS (Outer Continental
Shelf) Civil/Criminal Penalties Program policy document dated January 1996, which
incorporates the Service’s “OCS Civil/Criminal Penalties Program Policy and Procedures
Guidebook,” dated December 1992, provides guidelines on violations that should be referred
for potential criminal violations. The Service revised its “Guidebook” on May 12,1999, after
our fieldwork was completed. Chapter 4 of the revised “Guidebook” states:

      Criminal violations are covered under Section 24(c) of the OCSLA [Outer
      Continental Shelf Lands Act] (43 U.S.C. 1350(c)). The dividing line between
      civil and criminal violations may be very fine, because the key to determining
      whether or a not a violation is criminal depends on whether or not it was
      “knowing and willful.” It is important to note that a criminal penalty proceeding
      does not preclude the imposition of a civil penalty. In most instances, civil
      penalty cases should be initiated concurrently. Criminal violations are those that
      are knowing and willful and may include:

      -Violation of any provision of the OCSLA, any lease term, license, or permit
      pursuant to the Act, or any regulation or order issued under the Act designed to
      protect health, safety, or the environment or to conserve natural resources;

      -Any false statement, representation, or certification in any application, record,
      report, or other document filed or required to be maintained under the Act;

      -Falsifying, tampering with, or rendering inaccurate any monitoring device or
      method of record required to be maintained under the Act; and


                                               4
     -A revelation of any data or information required to be kept confidential by the
     Act.

The Solicitor’s Office assists the Service in determining which cases appear to be of a
criminal nature that should be referred to the Office of Inspector General for Investigations
and assists the Service in preparing the necessary documentation for forwarding to the Office
of Inspector General.

The Inspector General Act defines the primary purpose of the Inspector General as follows:

     (1) to conduct and supervise audits and investigations relating to programs and
     operations of the Departments;

     (2) to provide leadership and coordination and recommend policies for activities
     designed (A) to promote economy, efficiency, and effectiveness in the
     administration of, and (B) to prevent and detect fraud and abuse in, such
     programs and operations; and

     (3) to provide a means for keeping the head of the establishment and the
     Congress fully and currently informed about problems and deficiencies relating
     to the administration of such programs and operations and the necessity for and
     progress of corrective action.

The Office of Inspector General conducts investigations based on information received from
a variety of sources, including the U.S. Congress, Departmental officials and employees
(including referrals from the Minerals Management Service), other Federal agencies, Office
of Inspector General audits, the general public, anonymous sources, the Office of Inspector
General Hotline, and a “Fraud Awareness” initiative.

For fiscal years 1993 through 1998, the Service had 229 civil penalty case files referred to
the reviewing officers, which consisted of 22 1 case files in the Gulf of Mexico Region Office
and 8 case files in the Pacific Region Office. Also during this time frame, the Service made
 18 criminal referrals to the Office of Inspector General, of which 3 referrals were accepted
by the Department of Justice and resulted in one criminal prosecution and two civil
settlements.

SCOPE
Our audit was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. As part of our audit, we reviewed the Departmental Report on Accountability
for fiscal year 1998, which includes information required by the Federal Managers’ Financial
Integrity Act of 1982, and the Service’s annual assurance statement on management controls
for fiscal year 1998 to determine whether any reported weaknesses were within the objective


                                              5
and scope of our review. We found that no material weaknesses within the objective and
scope of our review were reported by the Service. Our fieldwork, which was performed at
the Service’s Offshore Gulf of Mexico Region Office in New Orleans, Louisiana, and its
Offshore Pacific Region Office in Camarillo, California, included discussions with the
Service’s National Outer Continental Shelf Civil/Criminal Penalties Program Coordinator
in Herndon. Virginia.

To accomplish our objective, we reviewed the Service’s “OCS Civil/Criminal Penalties
Program Policy and Procedures Guidebook,” dated December 1992, and the current version
of the “Guidebook,” issued on May 12, 1999, as well as the Service’s Outer Continental
Shelf Civil/Criminal Penalties Program Policy document dated January 1996. We also
conducted interviews with the Service’s inspectors, reviewing officers, district supervisors,
regional supervisors, and a Service penalty coordinator; an Office of the Solicitor attorney;
Office of Inspector General investigators; and Department of Justice attorneys. The data
obtained during these interviews were analyzed and summarized to support conclusions in
the Results of Review section of this report. In addition, we judgmentally selected and
reviewed 28 civil penalty case files (22 from the Gulf of Mexico Region and 6 from the
Pacific Region) based primarily on the operators’ history of noncompliance and the types of
violations to determine whether any of the cases contained potential criminal violations and
should therefore have been referred to the Office of Inspector General. We also reviewed
Office of Inspector General Outer Continental Shelf criminal cases referred by the Service.

As part of our review, we evaluated the system of internal controls related to criminal
referrals to the extent we considered necessary to accomplish our objective. The internal
control weaknesses we found are discussed in the Results of Review section of this report.
Our recommendations, if implemented, should improve the internal controls in these areas.

PRIOR REVIEWS

Neither the Office of Inspector General nor the General Accounting Office has issued any
reports during the past 5 years on the Service’s Outer Continental Shelf criminal penalties
program. However, the Office of Inspector General, in March 1999, issued the report
“Offshore Civil Penalties Program, Minerals Management Service” (No. 99-I-374). The
report stated that reviewing officers did not adequately document penalty assessment
decisions and that case files were not reviewed by a supervisor to ensure that documentation
requirements were met. In addition, the report stated that inspectors did not always make
referrals for civil penalties when appropriate or make referrals in a timely manner. The
report contained recommendations for the Director, Minerals Management Service, to (1)
ensure that reviewing officers document all conclusions for determining the category of
violations and any mitigating factors that were considered in arriving at assessed amounts
of penalties, (2) institute supervisory or peer reviews to ensure that civil penalty assessments
are adequately documented, (3) ensure that inspectors receive training in determining when
violations should be referred for civil penalties and in sufficiently documenting the violations
on the Incidents of Noncompliance, and (4) direct Service managers to provide sufficient
support to inspectors to ensure that appropriate violations are referred for civil penalties. The
Service concurred with the four recommendations.

                                                6
                             RESULTS OF REVIEW
The Minerals Management Service’s offshore criminal referral process did not ensure that
potential criminal violations by offshore oil and gas operators were referred to the Office of
Inspector General for review. In addition, the Office of Inspector General did not timely
communicate the status of cases referred to the Service. Specifically, potential criminal cases
that constituted a threat of serious, irreparable, or immediate harm or damage to life,
property, and the environment were not referred to the Office of Inspector General for
review. Section 24(c) of the Outer Continental Land Shelf Lands Act defines a criminal
violation as a “knowing and willful” act that is a violation of the provisions of the Act or the
falsification of documents filed under the Act. The Inspector General Act defines a primary
objective of the Inspector General as providing leadership and coordination and
recommending policies for activities designed to prevent and detect fraud and abuse in
programs of agencies ofthe executive branch of the Federal Government. However, criminal
cases were not referred to the Office of Inspector General because the Office of Inspector
General did not provide sufficient guidance and training to Service inspectors and reviewing
officers regarding the types of violations and circumstances that should be referred to the
Office of Inspector General and the Service’s case files did not have sufficient
documentation to determine whether a case contained potential criminal violations and
should have been referred to the Office of Inspector General. There have been only
 18 referrals of suspected criminal violations since enactment of the Oil Pollution Act of
 1990, which resulted in one criminal prosecution and two civil settlements by the
Department of Justice. As a result, criminal prosecutions have not been used effectively as
a deterrent to violators to ensure safe and environmentally sound offshore oil and gas
operations, and potential violations of a criminal nature are not fully evaluated for
prosecutorial merit.

Criminal Referral ProceSs

As of September 30, 1998, the Minerals Management Service had 229 civil penalty cases,
of which only 18 criminal cases were referred to the Office of Inspector General. We
judgmentally selected 28 (which excluded the 18 criminal cases that were referred to the
Office of Inspector General) of the Service’s 229 civil penalty cases to determine whether
any of these cases should have been referred criminally to the Office of Inspector General.
Our selection was based on the types of violations, provided by Service inspectors, that (1)
might be the result of a knowing and willful act, including operator history of
noncompliance, and (2) represented potential or actual harm to the Government or the
environment. Of the 28 cases reviewed, we found, in consultation with Office of Inspector
 General investigators, that 3 cases should have been referred to’ the Office of Inspector
 General for criminal investigation. Further, we found that another 8 of the 28 cases did not
have sufficient documentation to make a determination as to whether a criminal referral
 would have been appropriate. The lack of documentation in civil penalty case files was also
 cited as a program deficiency in our March 1999 audit report on civil penalties (see Prior
 Reviews section of this report). For the remaining 17 cases, we concurred with the Service



                                               7
that a criminal referral was not warranted. Details of the three civil penalty cases that were
not referred from our sample are as follows:

      -In the first case, an operator was cited for not having a gas detection system installed
on a classified building. The Service’s citation stated that “without a gas detection system
or adequate ventilation, an explosion or catastrophic event could have occurred resulting in
damage to the facility, environment, and/or loss of life.” Although the operator’s written
response to the violation indicated that a vent had been installed in the building, the followup
inspection by Service personnel found that the vent had not been installed. Therefore, in
accordance with the 1992 and the 1999 versions of the Service’s “Guidebook,” the case
should have been referred to the Office of Inspector General for review to determine whether
a “criminal violation,” for example, “any false statement,” had occurred.

      -In the second case, an operator was cited for taking 27 safety devices out of service
so that platform operations would continue rather than be shut down. These devices were
intended to prevent or minimize the effects of well blowouts, fires, spillage, and other major
accidents. The final decision of the Service’s reviewing officer stated, “The inspection
revealed that safety devices were blocked out of service at the main control panel. The
inspection further revealed that the devices were not flagged nor were the functions of the
devices being monitored.” The Service prepared a Compliance Review Form that included
the following narrative:

      In other words, all the required safety devices of all wells and production
      equipment on this platform were in bypass and would not have shut-in any wells
      or production equipment had an upset or catastrophic event occurred during the
      time the platform safety system was in bypass. The bypass of the safety system
      was not due to start up, testing or maintenance, and the safety system was not
      monitored at the time the violation was detected.

According to the Assistant Inspector General for Investigations, this case should have been
referred to the Office of Inspector General for review because ofthe number of safety devices
that were taken out of service and the potential safety hazards.

      -In the third case, an operator was issued eight Incidents of Noncompliance for
bypassing safety devices and for an accident that resulted in an oil spill. Operator error in
mechanically bypassing a safety system and the final shutdown device was listed as the cause
of the accident. One violation involved a well that produced for 32 days, even though it did
not have a subsurface safety valve installed. If an accident had occurred on the platform, the
potential existed for significant environmental damage. The Service, in the Accident
Investigation Report, identified the cause of the accident as follows: “the operator was
producing into bad oil tank in attempts to maintain production, thereby maintaining an
abnormally high level of oil in a bad oil tank.” Because the operator continued to operate the
oil well for 32 days, we believe that the case should have been referred to the Office of
Inspector General for review to determine whether the safety device was intentionally
bypassed.


                                               8
Criminal referrals were not made because guidance and training to Minerals Management
Service inspectors and reviewing officers were inadequate and documentation in the
Service’s case files was insufficient to make a determination as to whether a criminal referral
was warranted.

Chapter 4 of the revised “Guidebook” provides procedures for its personnel to follow when
a potential criminal violation occurs. The “Guidebook” states:

      If any MMS [Minerals Management Service] employee has reason to believe that
      a violation of the criminal statutes has occurred, that employee is to immediately
      report such a violation to an appropriate authority. Every employee has the right
      to directly (anonymously if preferred) contact the Office of Inspector General
      using the IG Hotline . . . .

      In criminal matters, the National OCS [Outer Continental Shelf] Civil/Criminal
      Penalties Program Coordinator will work closely with the Office ofthe Inspector
      General (OIG) and the Office of the Solicitor (SOL). In some cases, criminal
      investigations may be initiated outside of official MMS channels. In those
      instances, the OIG, when appropriate, will notify MMS and the Solicitor’s office
      of the initiation of a criminal investigation.

      Concurrent Civil and Criminal Penalty Cases. When MMS has requested an
      investigation of possible criminal violations by the OIG, the MMS should
      proceed with civil penalty cases to the point of forwarding the case to a
      Reviewing Officer, at which time the civil penalty case should be put on hold
      pending a review of the matter by the National OCS Civil/Criminal Penalties
      Program Coordinator, the OIG, the Solicitor, and the U.S. Attorney’s office. The
      Regional OCS Civil/Criminal Penalties Program Coordinator should not advise
      the violator of the proposed civil penalty proceedings until advised to by the
      National OCS Civil/Criminal Penalties Program Coordinator. In cases where the
      criminal investigation is prompted by an anonymous call from a citizen or MMS
      employee, the OIG will advise MMS to suspend civil penalty proceedings, in a
      similar manner, until the matter is reviewed by the panel listed above.

      We have adopted this policy to demonstrate our intent to pursue civil penalties
      in ail cases of serious violations. In the event that the criminal case is dropped
      or otherwise fails, MMS will have already indicated its intent to pursue civil
      penalties. Each such case will be evaluated on its own merits for concurrent civil
      and criminal proceedings. This strategy has been adopted so that civil penalty
      proceedings will not get in the way of criminal investigations, and so that a civil
      penalty will not affect the amount or extent of a possible criminal penalty.

When we requested that the Service’s reviewing officers in the Gulf of Mexico analyze those
cases from our sample which we determined should have been referred to the Office of
Inspector General, they responded that they did not have the knowledge or the training to
determine whether these cases should be referred. Although the revised “Guidebook”

                                               9
identifies the procedures for Service personnel to follow in criminal matters, additional
guidelines and training on what constitutes a potential criminal violation need to be prdvided
to those personnel who decide which cases should be referred for investigation, such as the
Service’s Outer Continental Shelf inspectors, reviewing officers, and regional civil/criminal
penalty program coordinators.

The Service said that it had made several attempts to obtain guidance on what cases should
be referred to the Office of Inspector General from the Office of Inspector General for
Investigations and to coordinate its civil assessment process with the Office of Inspector
General’s investigations on cases referred. Specifically, the Service said that its initial
attempt was a May 23, 1995, memorandum to its Outer Continental Shelf Directors in the
Gulf of Mexico and Pacific Regions outlining procedures related to concurrent civil and
criminal penalty investigations. In addition, Service officials said that the Service had held
several meetings in August and October 1997 with personnel from the Solicitor’s Office and
the Office of Inspector General to coordinate its criminal penalty referrals to the Office of
Inspector General for Investigations with the Service’s civil penalty assessments. However,
according to Service officials, guidance was not obtained and an agreement was not reached
on the proper coordination, which is why the Service requested that the Office of Inspector
General review the criminal referral process. We believe that the Office of Inspector General
and the Service, in conjunction with the Solicitor’s Office, should develop specific guidance
for Service personnel to differentiate between those cases that should be handled
administratively through the civil penalties process and those that should be referred to the
Office of Inspector General for consideration of criminal proceedings. The specific guidance
should include applicable laws and should identify the types of violations that would most
likely result from a knowing and willful act and/or result in significant environmental or
other harm (actual or potential) to the Government. The Office of Inspector General should
then provide training to Service personnel on how to differentiate the cases.

Coordination of Referred Cases

We reviewed 11 of the 18 criminal referrals by the Service to the Office of Inspector General
and found that the Office of Inspector General had not formally informed Service personnel
of the status of cases referred. We were unable to review seven criminal case files because,
according to investigators from the Office of Inspector General, five files that had been
retired to the Federal Records Center could not be located by Center personnel and two cases
were being investigated at the time of our review. Of the 11 cases reviewed, we found that
(1) the Office of Inspector General declined to forward 2 cases to the Department of Justice
because either the violations did not appear to be knowing and willful actions or no Office
of Inspector General investigative resources were available to investigate the cases; (2) the
Department of Justice declined to prosecute 6 cases because, according to files of the Office
of Inspector General, there was minimal gain by violators, no financial loss to the
Government, and no harm to the environment; and (3) the Department of Justice had 1
criminal prosecution and 2 civil settlements for the remaining 3 cases.

The Service’s 1992 “Guidebook” and revised “OCS Civil/Criminal Penalties Program Policy
and Procedures Guidebook” state that civil penalty cases should be initiated concurrently

                                              10
with criminal cases. However, the Office of Inspector General did not effectively coordinate
with the Service on criminal case referrals because the Office of Inspector General did not
have a process to formally notify the Service of the status of referred cases. The lack of
coordination issue was also addressed in a 1994 Service annual review.’ We found one
instance in which the Service did not pursue a civil penalty case because a concurrent review
was not performed after referral to the Office of Inspector General and the case was 14
months old before it was declined for criminal investigation by the Office of Inspector
General for a lack of resources. As a result, the violator was not issued a civil penalty and
a criminal prosecution was not pursued because the Office of Inspector General had
insufficient resources to devote to the case. Based on our review of 11 criminal cases, we
found no evidence of any formal memoranda issued by the Office of Inspector General to the
Service concerning the final status of cases referred. For example, one case was referred to
the Department of Justice in 1994 by the Office of Inspector General. We could not find any
followup actions with the Department of Justice or the Service that had been documented by
the Office of Inspector General. Almost 5 years later, the criminal case was still shown as
open in the Office of Inspector General investigative file. An Office of Inspector General
investigator told us that the Service was normally informed of the disposition of referred
cases informally through telephone conversations.

We believe that the Office of Inspector General needs to establish a formal process to timely
inform the Service of the status of all referred cases, including criminal investigations, to
ensure that (1) violators are issued civil penalties and (2) civil penalty investigations do not
interfere with criminal investigations.

Recommendations

We recommend that the Director, Minerals Management Service, and the Assistant Inspector
General for Investigations:

      1. Jointly establish more specific guidelines, in conjunction with the Solicitor’s Office,
which identify factors such as the types of violations, the potential environmental or financial
harm to the Government, and operator history ofnoncompliance to distinguish cases meriting
criminal investigation. These guidelines should be incorporated into the Service’s “OCS
Civil/Criminal Penalties Program Policy and Procedures Guidebook” or in a memorandum
to Service personnel.




‘An annual review of the OCS Civil/Penalties Program is required by the Service’s 1992 “Guidebook.”
According to the May 1994 final report, the 1994 review was the second review conducted by the Service of
the Program. The report stated that there were “no major problems with the program However, a number
of minor program implementation weaknesses were identified.” One of the minor weaknesses identified,
according to the final report, was the need to improve communication between the Service and the Office of
Inspector General. The report recommended that the Service “[dlevelop procedures for communication with
the Office of. Inspector General (IG) regarding initiation of criminal investigations.”

                                                    11
      2. Provide training to the Service’s Outer Continental Shelf personnel involved in the
criminal referral decision process on the guidance developed in Recommendation 1 and on
the types of information on violations that should be documented.

We recommend that the Assistant Inspector General for Investigations:

      3. Provide written notification to the Service on the status of all referred cases within
60 days of the referral and timely inform the Service in writing of the disposition of the
referred cases.

Minerals Management Service Response and Office of Inspector General
Reply
In the September 14, 1999, response (see Appendix 1) to the draft report from the Director,
Minerals Management Service, the Service concurred with Recommendations 1 and 2 and
said that it would coordinate a target date for completion of the recommendations with the
Assistant Inspector General for Investigations and the Solicitor’s Office. The Service also
agreed with the third recommendation to the Assistant Inspector General for Investigations
and suggested that the recommendation be expanded to include providing quarterly reports
which summarize the status of all ongoing criminal investigations to the Service’s National
OCS Civil/Criminal Penalties Program Coordinator.

Based on the Service’s response, we consider Recommendations 1 and 2 resolved but not
implemented (see Appendix 3).

Assistant Inspector General for Investigations Response and Office of
Inspector General Reply

In the September 14, 1999, response (see Appendix 2) to the draft report from the Assistant
Inspector General for Investigations, Investigations concurred with Recommendations 1,2,
and 3 and said that it would coordinate a target date for completion of Recommendations 1
and 2 with the Service and the Solicitor’s Office. In subsequent communications, the
Assistant Inspector General for Investigations provided a revised target date of February 29,
2000, for Recommendation 3. Regarding the Service’s suggestion to provide quarterly
reports summarizing the status of all ongoing criminal investigations, Investigations officials,
in a subsequent discussion, stated that they would consider the suggestion.

Based on the responses and subsequent communications, we consider Recommendations 1,
2, and 3 resolved but not implemented. Accordingly, the recommendations will be referred
to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation. Since the report’s recommendations are considered resolved, no further
response to the Office of Inspector General is required (see Appendix 3).




                                               12
Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                              13
                                                                                  APPENDIX 1 ’
                                                                                    Page 1 of 3


                      United States Department of the Interior
                                  MINERALS MANAGEMENT SERVICE
                                           Washington, DC 20240




Memorandum

To:

Through:


From:          Walt Rosenbusch
               Director, Minerals Management Service

Subject:       Office of Inspector General Draft Audit Report “Criminal Referral Process,
               Offshore Civil/Criminal Penalties Program, Minerals Management Service”
               [C-I-N-MMS-004-98-R]

Thank you for the opportunity to respond to this draft report. We’re sending you our comments
on the recommendations. We agree with all three recommendations, and plan to implement them
in coordination with the Assistant Inspector General for Investigations and the Solicitor’s office.

Please contact Bettine Montgomery at (202) 208-3976 if you have any further questions.



Attachment




                                                  14
                                                                                      APPENDIX 1
                                                                                        Page 2 of 3

,
    MINERALS MANAGEMENT SERVICE RESPONSE TO DRAFT SURVEY REPORT
    “CRIMINAL REFERRAL PROCESS, OFFSHORE CIVIL/CRIMINAL PENALTIES
    PROGRAM, MINERALS MANAGEMENT SERVICE”

    Audit Agency: Office of the Inspector General
    Report Number: C-IN-MMS-004-98-R

    We appreciate this opportunity to comment on the draft report. We want to thank the auditors
    for incorporating all of the comments we presented at the July 1, 1999, exit conference. As
    we said at the conference, we worked closely with the audit team, providing detailed
    information on how the process works and making available all of the case files we had worked
    on to date. We believe this report will serve as a starting point for improvement of the
    criminal referral process.

    COMMENTS ON RECOMMENDATIONS

    1. Jointly establish more specific guidelines, in conjunction with the Solicitor’s Office, which
       identify factors such as the types of violations, the potential environmental or financial
       harm to the Government, and operator history of noncompliance to distinguish cases
       meriting criminal investigation. These guidelines should be incorporated into the Service’s
       “OCS Civil/Criminal Penalties Policy and Procedures Guidebook” or in a memorandum to
       Service personnel.

       AGREE - We plan to work closely with both the Assistant Inspector General for
       Investigations (AIGI) and the Office of Solicitor to establish specific guidelines for criminal
       referrals. It is critical that both the AIGI and the SOL agree on these guidelines. Over the
       past several years, we have received conflicting advice from the AIGI and the SOL, which
       has prevented us from resolving issues.

       Responsible Official: National Coordinator, OCS Civil/Criminal Penalties Program
       Target Date for Comnletion: To be determined in conjunction with the Assistant Inspector
       General for Investigations.

    2. Provide training to the Service’s Outer Continental Shelf personnel involved in the criminal
       referral decision process on the guidance developed in Recommendation 1 and on the types
       of information on violations that should be documented.

       AGREE - We provide periodic training to all of the personnel involved in the OCS
       Civil/Criminal Penalty Program. We plan to incorporate the guidelines developed under
       Recommendation 1 into these training sessions. In the past, we have invited both the AIGI
       and the SOL to participate in this training effort. However, to date, no one from the AIGI
       office has been available for these training sessions. We welcome the opportunity to
       include the AIGI in our periodic training sessions.



                                                   15
                                                                                  APPENDIX 1
                                                                                    Page 3 of 3


                                                                                                    2

     Responsible Official: National Coordinator, OCS Civil Penalties Program
     Target Date for Completion: Upon completion of Recommendation 1.

3.      Provide written notification to the Service on the status of all referred cases within 60
        days of the referral and timely inform the Service in writing of the disposition of the
        referred cases.

     AGREE - Improved communication between MMS and the AIGI is critical to the success
     of the criminal referral program. In addition to the 60-day notification, we recommend that
     the AIGI provide the MMS National OCS Civil/Criminal Penalties Program Coordinator
     quarterly reports summarizing the status of all ongoing criminal investigations.

     Responsible Official: Assistant Inspector General for Investigations
     Target Date for Comnletion: To be determined by the Assistant Inspector General for
     Investigations.




                                                16
                                                                                APPENDIX 2
                                                                                  Page 1 of 3

                 United States Department of the Interior
                                  OFFICE OF INSPECTOR GENERAL
                                        Washington, D.C. 20240



                                                                                SEP I A    19%

Memorandum

To:            Assistant

From:          John R. Sinclair
                                    General for Investigations

Subject:                          General Draft Audit Report “Criminal Referral Process,
               Offshore Civil/Criminal Penalties Program, Minerals Management Service”
               (C-IN-MM-004-98-R)

Thank you for the opportunity to respond to the above subject draft audit report. The Office of
Investigations has reviewed the enclosed report, and plans to implement its recommendations in
coordination with the Director, Minerals Management Service and the Office of the Solicitor.

If you have any questions, please contact me or Mr. Anthony D. Mayo, Deputy Assistant
Inspector General for Investigations, at (202) 208-6752.




Enclosure




                                                  17
                                                                                    APPENDIX 2
                                                                                      Page 2 of 3


RESPONSE OF THE ASSISTANT INSPECTOR GER’ERAL FOR INVESTIGATIONS TO
DRAFT AUDIT REPORT ON “CRIMINAL REFERRAL PROCESS, OFkSHORE
CIVIL/CRIMINAL PENALTIES PROGRAM, MINERALS MANAGEMENT SERVICE”

Audit Agency: Office of Inspector General (OIG)

Report Number: C-IN-MMS-004-98-R

We appreciate the opportunity to comment on the draft report. We look forward to working closely
with the Minerals Management Service (MMS) and the Solicitor’s Office (SOL) to improve the
criminal referral process.

COMMENTS ON RECOMMENDATIONS

1. Jointly establish more specific guidelines, in conjunction with the Solicitor’s Office, which
identify factors such as the types of violations, the potential environmental or financial harm to the
Government, and operator history of noncompliance to distinguish cases meriting criminal
investigations. These guidelines should be incorporated into the Service’s “OCS Civil/Criminal
Penalties Program Policy and Procedures Guidebook” or in a memorandum to Service personnel.

AGREE - We plan to work closely with both the MMS and the SOL to establish specific guidelines
for criminal referrals. These guidelines will be disseminated to our field offices in the form of a
memorandum and will be included in the revised OIG Manual now under development.

Resnonsible Official: Assistant Inspector General for Investigations
Target Date for Comuletion: To be determined in conjunction with the National Coordinator
OCS/Civil/Criminal Penalties Program, MMS.

2. Provide training to MMS Outer Continental Shelf personnel involved in the criminal referral
decision process on the guidance developed in Recommendation 1 and on the types of information
on violations that should be documented.

Agree - For approximately the past 5 years, the OIG has presented numerous Fraud Awareness
seminars to employees of several Department of the Interior bureaus, including MMS. We will
adapt the material presented at our Fraud Awareness training sessions to include the specific
guidelines developed in response to Recommendation 1 and will present it to MMS personnel
involved in the Outer Continental Shelf (OCS) Civil/Criminal Penalty Program. We will request
that MMS provide us with a schedule of periodic training sessions as early in the fiscal year as the
training schedule is developed. If this is not possible, that is, if the sessions are not scheduled in
advance on a yearly basis, we will request at least 45 days’ notice so that we can ensure the
availability of an OIG agent.

Responsible Official: Assistant Inspector General for Investigations, in conjunction with the National
Coordinator, OCS Civil/Criminal Penalties Program, MMS
Target Date for Comnletion: Upon completion of Recommendation 1 and receipt of proposed dates

                                                 18
                                                                                  APPENDIX 2
                                                                                    Page 3 of 3


of training from MMS.

3. Provide written notification to the Service on the status of all referred cases within 60 days of
referral and timely inform the Service in writing of the disposition of the referred cases.

Agree - We will issue a memorandum directing the field offices to provide MMS, within 60 days
of receiving a referral from MMS, a status memorandum. The memorandum will also direct the
field offices to provide MMS, within 30 days ofreceipt by OIG ofdocumentation indicating the final
disposition of a case (for example, a copy ofjudgment/commitment order from the clerk ofthe court
in the jurisdiction where a prosecution took place or a letter of declination from the cognizant U.S.
Attorney’s Office), written notification of the disposition of all referred cases.

Responsible Official: Assistant Inspector General for Investigations

Target Date for Completion: November 1, 1999




                                                19
                                                             APPENDIX 3


    STATUS OF ADVISORY REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference              Status            Action Reauired
       1, 2, and 3       Resolved; not   No further response to the Office
                         implemented.    of Inspector General is required.
                                         The recommendations will be
                                         referred to the Assistant
                                         Secretary for Policy,
                                         Management and Budget for
                                         tracking of implementation.




                                    20
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                  http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States

U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone      HOTLINE     *
1849 C Street, N.W.                                    l-800-424-5081 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420



                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
Guam Field Office
4 15 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
     U.S. Department of the Interior
     Office of Inspector General
     1849 C Street, NW
     Mail Stop 5341- MIB
     Washington, D.C. 20240-000 1

     Toll Free Number
           l-800-424-508 1

     FTSKommercial Numbers
         (202) 208-5300
         TDD (202) 208-2420




P8
1
